         OFFICE OF INSPECTOR GENERAL 




                                    Catalyst for Improving the Environment


Evaluation Report



          Voluntary Programs Could
          Benefit from Internal Policy
          Controls and a Systematic
          Management Approach
          Report No. 2007-P-00041

          September 25, 2007
Report Contributors:	              Natasha Besch-Turner
                                   Jeffrey Harris
                                   Jeffrey S. Hart
                                   Thane Thompson




Abbreviations

EPA          U.S. Environmental Protection Agency
IAC          Innovation Action Council
OAR          Office of Air and Radiation
OIG          Office of Inspector General
OPEI         Office of Policy, Economics, and Innovation
OPPTS        Office of Prevention, Pesticides, and Toxic Substances




Cover Illustrations: Logos of selected EPA voluntary programs (from EPA Website)
                        U.S. Environmental Protection Agency 	                                         2007-P-00041
                        Office of Inspector General                                               September 25, 2007




                        At a Glance

                                                                           Catalyst for Improving the Environment

Why We Did This Review             Voluntary Programs Could Benefit from Internal Policy
We developed this report to
                                   Controls and a Systematic Management Approach
identify current voluntary
                                    What We Found
program management
challenges. Our goal was to
                                   EPA has no Agency-wide policies that require voluntary programs to collect
determine whether (1) the
                                   comparable data or conduct regular program evaluations. Without a consistent set
U.S. Environmental Protection
                                   of policies, EPA cannot determine the overall environmental impact of its
Agency (EPA) has consistent
                                   voluntary programs. EPA lacks internal controls that outline specific ways to
Agency-wide policies that
                                   determine the success or failure of EPA’s overall voluntary program effort. As a
govern voluntary programs;
                                   result, EPA cannot determine which voluntary programs are succeeding or failing.
(2) EPA’s definitions of
                                   EPA also cannot determine which programs should serve as models for future
voluntary programs are
                                   program development.
understood by its staff and the
public; and (3) EPA has the
                                   EPA program offices have difficulty applying the current voluntary program
necessary processes to
                                   definitions. This is because the scope of EPA’s voluntary program definitions has
consistently develop, test, and
                                   changed drastically in the last 4 years. Depending on the source, the number of
review these programs.
                                   EPA voluntary programs varies between 54 and 133. However, the actual number
                                   of voluntary programs has not significantly changed. Instead, changes to program
Background
                                   definitions simply expanded the scope of the populations. This problem can
                                   confuse EPA staff, participants, and the public.
EPA increasingly relies on
voluntary programs as tools
                                   EPA does not have a system to develop, test, and market new programs. EPA also
for protecting the
                                   lacks a system to evaluate existing programs, and may benefit from adopting a
environment. EPA’s
                                   research and development model. Without a consistent management system, EPA
54 headquarters voluntary
                                   cannot ensure that programs have the necessary elements to demonstrate their
programs are diverse,
                                   impact. Further, EPA lacks a systematic method to design, evaluate, and model
reportedly providing a variety
                                   programs that are effective at achieving environmental results.
of benefits to several different
customer groups, including
                                   What We Recommend
some non-governmental
organizations and the public.
                                   We recommend that the Deputy Administrator provide the Associate
                                   Administrator for the Office of Policy, Economics, and Innovation with the
                                   authority to develop, implement, and oversee mandatory Agency-wide
For further information,           management policies for voluntary programs. Further, those mandatory policies
contact our Office of              should implement a systematic management approach similar to a research and
Congressional and Public           development model, and develop specific definitions or criteria that outline the
Liaison at (202) 566-2391.         general intent and function for the groups or categories of EPA voluntary
To view the full report,
                                   programs that are currently implemented.
click on the following link:
www.epa.gov/oig/reports/2007/      Agency respondents generally concurred with our recommendations. However,
20070925-2007-P-00041.pdf          we remain uncertain exactly how the Agency plans to address and resolve each of
                                   our individual recommendations. We therefore consider our report
                                   recommendations to be open and unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                       September 25, 2007

MEMORANDUM

SUBJECT:               Voluntary Programs Could Benefit from Internal Policy Controls
                       and a Systematic Management Approach
                       Report No. 2007-P-00041


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Marcus C. Peacock
                       Deputy Administrator


This is our report on the internal policy controls of the U.S. Environmental Protection Agency’s
(EPA’s) voluntary programs, conducted by EPA’s Office of Inspector General (OIG). This
report contains findings that describe the problems the OIG has identified and corrective actions
the OIG recommends. This report represents the opinion of the OIG and does not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established evaluation resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $135,649.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at 202-566-0827
or najjum.wade@epa.gov; or Jeffrey Harris, Product Line Director, at 202-566-0831 or
harris.jeffrey@epa.gov.
                 Voluntary Programs Could Benefit from Internal Policy Controls
                            and a Systematic Management Approach




                               Table of Contents 


Chapters
  1    	Introduction................................................................................................   1


              Purpose .............................................................................................    1     

              Background .........................................................................................     1    

              Noteworthy Achievements ..................................................................               1     

              Scope and Methodology .....................................................................              2     


  2 	 Voluntary Programs Need Stronger Internal Policy Controls 

      and a Systematic Management Approach ...............................................                             3


              Overall Voluntary Program Effort Lacks Strong Internal Controls ........                                 3

              Voluntary Programs Need More Specific Definitions ...........................                            4   

              EPA Could Apply a Research and Development Approach ................                                     6

              Conclusions ........................................................................................     7 

              Recommendations ...............................................................................          8   

              Agency Responses and OIG Evaluation .............................................                        8


  Status of Recommendations and Potential Monetary Benefits .....................                                      9         




Appendices
  A    EPA-Wide Voluntary Program Policy ......................................................                        10 


  B    Agency Responses ...................................................................................            14


  C    OIG’s Analysis of Agency Responses ....................................................                         21


  D    Distribution.................................................................................................   28

                                           Chapter 1
                                            Introduction
Purpose
                 We developed this report to identify current management challenges with the
                 U.S. Environmental Protection Agency’s (EPA’s) voluntary programs. Our goal
                 was to determine whether:

                 (1) 	 EPA has consistent Agency-wide policies that govern voluntary programs,

                 (2) 	 EPA’s definitions of voluntary programs are understood by its staff and the
                       public, and

                 (3) 	 EPA has the necessary processes to consistently develop, test, and review
                       these programs.

Background
                 Until 2004, EPA had not attempted to formally supervise or direct its overall
                 voluntary program effort. Program offices developed and ran voluntary programs
                 on their own. In 2004, EPA began to implement some changes to how it managed
                 voluntary programs. Between April 2004 and June 2004, then Acting Deputy
                 Administrator Stephen Johnson issued two policy memoranda that outlined some
                 changes to voluntary program management (Appendix A). These memoranda
                 instructed the Innovation Action Council1 (IAC) and the Office of Policy,
                 Economics, and Innovation (OPEI) to make three general changes. They were to
                 review programs; provide coordination and networking assistance; and develop
                 guidance documents to improve program design, measurement, and “brand
                 management” which relates to marketing these types of programs. At the same
                 time, the IAC and OPEI began to revise their approach to voluntary and
                 stewardship programs. These revisions included changes to the names,
                 definitions, and scope of these types of programs.

Noteworthy Achievements
                 EPA increasingly relies on voluntary programs as tools for protecting the
                 environment. EPA’s 54 headquarters voluntary programs are very diverse. They
                 reportedly provide a variety of benefits to several different customer groups,
                 including some non-governmental organizations and the public. According to
1
  Established in 1996, the IAC is composed of EPA's top career executives, and has overall responsibility for
formulating and advancing the Agency's innovation agenda. The mission of the IAC is to develop and promote
innovative approaches to addressing increasingly complex environmental challenges.


                                                        1

         EPA, voluntary programs achieve cost savings and energy conservation, and
         provide public recognition and technical assistance. There have been more than
         11,000 participants from all types of industries, local and State governments, and
         nonprofit organizations. The general public has saved nearly $6 billion,
         conserved 603 million gallons of water, and saved nearly 770 trillion British
         Thermal Units of Energy. Reported program outcomes also include reducing
         more than 150,000 tons of nitrogen oxide and more than 288,000 tons of sulfur
         dioxide.

Scope and Methodology
         We reviewed and assessed EPA’s guidance documents and publications related to
         voluntary programs, stewardship opportunities, partnership programs, and
         innovation activities. We analyzed internal memoranda and other Agency
         documents related to voluntary program management.

         Previous OIG reports in this topic area include: Report No. 2005-P-00007,
         Ongoing Management Improvements and Further Evaluation Vital to EPA
         Stewardship and Voluntary Programs, February 17, 2005; and Report No. 2007-
         P-00003, Partnership Programs May Expand EPA’s Influence, November 14,
         2006. We also reviewed data collected from our 2006 report as it related to the
         findings discussed in this report.

         We performed our evaluation between October 2006 and April 2007 in
         accordance with generally accepted government auditing standards issued by the
         Comptroller General of the United States. We reviewed management controls of
         the Agency-wide guidance regarding designing and measuring voluntary
         programs.




                                          2

                                Chapter 2
  Voluntary Programs Need Stronger Internal Policy
  Controls and a Systematic Management Approach
          EPA does not have uniform implementation policies that allow staff to identify a
          consistent population of voluntary programs or determine whether these programs
          are achieving their overall goals. EPA does not have Agency-wide policies that
          standardize management processes, require collection of consistent and reliable
          data, and apply uniform operational guidelines that allow for comparative
          evaluation. Nor has EPA developed specific definitions that help EPA staff to
          categorize or identify these diverse voluntary programs. Finally, EPA has not
          implemented a systematic process to develop, test, and market voluntary
          programs, or to regularly evaluate the impact of these programs on the
          environment. As a result, EPA cannot consistently identify its voluntary program
          population; determine the broad environmental impact of its voluntary program
          effort; or systematically design, evaluate, and model programs that are effective at
          achieving environmental results.

Overall Voluntary Program Effort Lacks Strong Internal Controls
          No program office or committee has been authorized to develop consistent
          Agency-wide operational policies for voluntary programs. In 2004, then Acting
          Deputy Administrator Johnson’s two policy memoranda only provided OPEI with
          the authority to conduct program coordination, provide networking assistance,
          and develop three specific guidance documents (Appendix A). However, he did
          not authorize OPEI to develop management controls necessary to collect uniform
          data or compare programs so that best practices could be shared across the
          organization. This lack of management authority presents a key challenge to
          effectively implementing this group of programs.

          OPEI has developed all three guidance documents and told us they have engaged
          in coordination activities. OPEI also informed us that they offer regular training
          courses for voluntary program managers. However, these three guidance
          documents and OPEI’s limited coordination efforts do not comprise an adequate
          management framework. EPA still lacks internal controls that govern program
          initiation, require specific data collection, and outline criteria-based evaluation
          methods to determine the success or failure of EPA’s overall voluntary program
          effort. As a result, EPA cannot determine which voluntary programs are
          succeeding, which are failing, and which should serve as models for future
          program development.




                                           3

Voluntary Programs Need More Specific Definitions
          EPA’s voluntary program definition has evolved over the last several years.
          However, EPA has yet to develop specific criteria that allow for consistent
          identification of different types of voluntary programs. The first voluntary
          program definition we identified was included in the Deputy Administrator
          Johnson’s 2004 Voluntary Program Charter (Appendix A). A new definition was
          provided in 2005, and was revised again in 2006. These definition changes are
          shown in Table 2.1 below.

          Table 2.1 Changes in Voluntary Program Definitions
              Year                          Voluntary Program Definition
                      Programs designed to motivate people and organizations to take actions,
              2004a
                      not required by regulation, that benefit the environment.
                      A voluntary program meets four general criteria:
                          • Voluntary;
              2005b       • Significant, two-way engagement with its members;
                          • Requires action on the part of the stakeholder; and
                          • In active operation.
                      A voluntary “partnership” program is:
                          • designed to proactively target and motivate external parties to
                              take specific environmental action steps;
              2006c       • does not compel by law external parties to take environmental
                              action steps; and
                          • [one where] EPA is responsible for providing leadership and
                              decision-making authority.
          a
            Source: EPA Charter for Coordinating and Managing EPA’s Voluntary Programs, 

          June 28, 2004. 

          b
            Source: EPA, Everyday Choices: Opportunities for Environmental Stewardship, 

          Technical Report, November 2005. 

          c
            Source: EPA, OPEI Definition of EPA Partnership Programs, December 2006. 


          The changes to voluntary program definitions, scopes, and counts have been
          challenging to track. As a result of these changes, EPA’s voluntary program
          population has reportedly increased rapidly over the last few years. In December
          2003, EPA reported about 75 voluntary programs. Just 2 years later, in
          November 2005, EPA reported 133 voluntary partnership programs. OPEI
          informed us that the number of programs did not increase significantly during that
          timeframe. However, they told us that changes to the definitions simply expanded
          the scope of the populations.

          The most significant change we found was in how EPA uses the term
          stewardship. Over the last 3 years, the scope of this term has expanded from 6
          programs to over 400 stewardship opportunities. Now, these efforts encompass
          the majority of EPA’s voluntary efforts. To better make sense of how the
          definitions and scope of these programs have changed since 2004, see Table 2.2.
          As shown in this table, the program type, description, and number of programs
          depend on which EPA organization identifies the population.

                                             4

                  Table 2.2 Changes in the Scope of EPA’s Voluntary Program Effort

                                                                                 Number of    Population
                   Year          Program Type             Description
                                                                                 Programs    Identified by:
                                 Stewardship      A subset of EPA’s larger
                                                                                    6              OPEI
                                 Programs         Voluntary Program effort
                             a
                      2004                        The entire population of
                                 Voluntary
                                                  programs engaged in               75             OPEI
                                 Programs1
                                                  voluntary efforts.
                                                  Programs that help all parts
                                                  of society actively take
                                 Stewardship
                                                  responsibility to improve      Over 400          IAC
                                 Opportunities1
                             b                    environmental quality and
                   2005
                                                  achieve sustainable results.
                                 Voluntary        Programs that make up a
                                 “Partnership”    significant portion of EPA’s     133             IAC
                                 Programs1        overall Stewardship effort.
                  a
                    Source: EPA, 2003 Inventory of Voluntary Programs.

                  b
                    Source: EPA, Everyday Choices: Opportunities for Environmental Stewardship, 

                  Technical Report, November 2005. 

                  1
                    This population includes Voluntary Programs operated by EPA regional offices.


                  While the population inconsistencies discussed above are confusing, we also
                  found a more significant issue of concern. In January 2006, we asked each EPA
                  program office to provide a list of headquarters-based, national-scope voluntary
                  programs that they operated.2 Our list of 54 programs included the National Non-
                  Point Source (NPS) Pollution Prevention program. This $209 million program is
                  considered by some EPA offices to be a “grant” program, and thought of by other
                  offices as a “voluntary” program. This program meets all of the criteria outlined
                  in the 2006 voluntary program definition. However, a key aspect of the Non-
                  Point Source program is to give grants to States to operate water quality
                  programs. Regardless of the final determination, this situation demonstrates that
                  EPA’s current voluntary program definition is overly vague. As a result, Agency
                  staff is unsure whether a $209 million program is part of its overall voluntary
                  program effort.

                  We are also concerned about the ability of EPA program offices to consistently
                  interpret and apply the current voluntary program definitions. During our
                  information collection in January 2006, we found that most program offices were
                  unclear about what a voluntary program was. When we asked for a list of their
                  national-scope voluntary programs, the majority of the program offices asked,
                  “How do you define a voluntary program?”

                  We have determined that the lack of specific program definitions is the cause of
                  these problems. Current Agency-wide definitions are too broad and lead to
                  inconsistent application at the program office level. If the overall intent of a
                  program is to provide grant funds, then there should be criteria that keep this type

2
    Report No. 2007-P-00003, Partnership Programs May Expand EPA’s Influence, November 14, 2006.

                                                         5

         of program from being confused with other types of voluntary programs. While a
         single, Agency-wide definition may not be feasible, EPA should develop
         additional criteria for groups or categories of voluntary programs. These
         definitions should better describe the intent and function of these broader program
         types. Also, EPA must improve the way it communicates those definitions and
         criteria to each program office that operates voluntary programs.

         Identifying specific criteria for sets of voluntary programs can facilitate
         evaluation and management improvements. Improvements can include sharing
         best practices across programs that have similar functions. It can also identify
         effective management processes and determining which types of programs are
         most applicable to solving certain environmental problems. Separating voluntary
         programs into general program types is not new. This approach has already been
         used in the November 2005 EPA report, Everyday Choices: Opportunities for
         Environmental Stewardship. In Appendix F of that document’s Technical Report,
         partnership programs were separated into three general categories: Voluntary
         Programs (VP), Grant programs (G), and Information (I) programs. We believe
         that specific criteria that identify program “types” will help both EPA and its
         voluntary program participants to consistently identify these broad sets of
         programs. Further, specific criteria will also help program offices consistently
         determine how and when policy and guidance documents apply to their individual
         programs.

EPA Could Apply a Research and Development Approach
         EPA’s current voluntary program management approach seeks to avoid top-down
         planning and directives. In the context of voluntary programs, this approach has
         merit. Standardized management processes may not necessarily stimulate grass-
         roots creativity and innovative problem solving. EPA encourages program offices
         to design new voluntary programs as they see fit. EPA assumes that those
         programs that are soundly designed will thrive, while poorly planned ones will
         soon wither and die.

         Our concern is that, regardless of a program’s eventual fate, this approach
         provides very few checks and balances. Without policies and oversight, we are
         not sure how EPA will ensure that programs have the necessary elements to
         demonstrate their impact. EPA must find a balance between the creativity
         inherent to voluntary program development and the need to demonstrate their
         outcomes. We believe that this effort can benefit by adopting a research and
         development management model like the one outlined in Figure 2.1 below.




                                          6

         Figure 2.1: Research and Development Model


              Basic          Innovation         Develop          Market          Review
            Research         or Specific        and Test          and              and
           on Problem         Solution                          Replicate       Evaluation




         Source: Adapted from National Institute of Standards and Technology (NIST)
         research model.

         The creation of a voluntary program is similar to the research and development of
         a marketable product. A voluntary program or innovation must be first
         conceived, developed, tested, and marketed. Finally, the program must be
         reviewed to determine if it is performing successfully and if participants are
         “consuming” the product. This management approach does not require voluntary
         programs to conform to a rigid set of design criteria. Considering the current
         number of EPA voluntary programs, the Agency has been successful at creating a
         wide variety of voluntary solutions to environmental problems. What EPA lacks
         is a systematic process. EPA needs a system to develop, test, and market new
         programs, as well as evaluate existing programs. Otherwise, EPA cannot
         determine which voluntary programs are succeeding, which are failing, and which
         should serve as models for future program development. The application of this
         kind of management approach should help EPA retain flexibility, while still
         ensuring that voluntary programs include the key elements necessary for
         comparative evaluation.

Conclusions
         EPA has not provided a program office with the authority to develop Agency-
         wide management policies that allow for comparative program evaluation. Also,
         EPA does not have sufficient voluntary program definitions. Current definitions
         are inconsistently applied, and EPA cannot verify which programs are included or
         excluded from its voluntary program population. Finally, EPA has not
         implemented a systematic management approach for developing new programs or
         for evaluating existing programs. As a result, EPA cannot consistently identify its
         voluntary program population; determine the overall environmental impact of its
         broader voluntary program effort; or systematically design, evaluate, and model
         programs that are effective at achieving environmental results.




                                           7

Recommendations
         To correct these problems, we recommend that the Deputy Administrator:

         2-1 	   Provide the Associate Administrator for OPEI with the authority to
                 develop, implement, and oversee mandatory Agency-wide management
                 policies for voluntary programs.

         2-2 	   As a part of the mandatory policies in Recommendation 2-1 above,
                 implement a voluntary program management approach similar to a
                 research and development model.

         2-3 	   As a part of the mandatory policies in Recommendation 2-1 above,
                 develop specific definitions or criteria that outline the general intent and
                 function for the groups or categories of EPA voluntary programs that are
                 currently implemented.

Agency Responses and OIG Evaluation
         EPA concurred with the report in general. However, we remain uncertain exactly
         how the Agency plans to address and resolve each of our individual
         recommendations. We therefore consider our report recommendations to be open
         and unresolved based on our analysis of the Agency’s comments. In its response
         to our final report, EPA should outline how each recommendation will be
         addressed. EPA should also develop a corrective action plan for agreed upon
         actions that includes milestone dates for accomplishing each of those actions.

         Further, EPA indicated that it planned to leave the creation of the new internal
         control policies and programmatic oversight to the IAC. The IAC is not the
         appropriate designee for this responsibility. The actions described in our
         recommendations are better implemented by a program office that can have daily
         rather than just periodic involvement with the issues. OPEI has been charged
         with other aspects of voluntary program management. Therefore, it is appropriate
         for the Deputy Administrator to provide OPEI with the authority to develop,
         implement and oversee these mandatory policies. We have revised our
         recommendations accordingly. We have also incorporated technical corrections
         and clarifications from EPA’s response as appropriate.

         In addition to OPEI, the Office of Air and Radiation and the Office of Prevention,
         Pesticides, and Toxic Substances also responded to our report. For the complete
         Agency responses from all three offices, see Appendix B. For the OIG’s
         evaluation of the Agency responses, see Appendix C.




                                           8

                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                           Subject                            Status1      Action Official         Date      Amount      Amount

    2-1       8     Provide the Associate Administrator for OPEI with           U        Deputy Administrator
                    the authority to develop, implement, and oversee
                    mandatory Agency-wide management policies for
                    voluntary programs.

    2-2       8     As a part of the mandatory policies in                      U        Deputy Administrator
                    Recommendation 2-1 above, implement a
                    voluntary program management approach similar
                    to a research and development model.

    2-3       8     As a part of the mandatory policies in                      U        Deputy Administrator
                    Recommendation 2-1 above, develop specific
                    definitions or criteria that outline the general intent
                    and function for the groups or categories of EPA
                    voluntary programs that are currently implemented.




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                                    9

                                                                                   Appendix A

               EPA-Wide Voluntary Program Policy
Provided below are the two policy memoranda published by the Acting Deputy Administrator
Stephen Johnson. These two documents represent the total Agency-wide policy that has been
developed for these programs to date.

Management of EPA’s Voluntary Programs
(issued April 21, 2004)

       This memorandum outlines a new management process for EPA's voluntary programs
       that builds on the successful efforts we have underway and continues a collaborative
       approach to deliver significant environmental results. I am establishing the Office of
       Policy, Economics, and Innovation (OPEI) as the lead office for this new initiative and
       outlining what you can expect over the next few months. I encourage you to share this
       information with your key staff that work on voluntary program issues and to work with
       me and OPEI to make this effort successful.

       EPA has established that voluntary programs can deliver significant environmental
       results when well designed and managed. As our use of this approach expands it is
       important to put the necessary processes in place so we can learn from the lessons of the
       past, meet the needs of our stakeholders, and use available resources effectively.

       The Innovation Action Council (IAC), through a six-month project, has recommended a
       set of management improvements that will strengthen individual programs and improve
       the strategic management of the full set of programs across the Agency. The
       recommendations are in three areas: better coordination across all programs, enhanced
       accountability for sound program design, and more strategic management of programs.
       The initial work includes:

          •	 An improved support network for voluntary program managers;
          •	 A set of guidelines on program design, brand management, and measurement; and
          •	 An Agency-wide notification process for new or expanding programs.

       To make this new management process work, I ask the following groups to take on the
       responsibilities outlined below.

          •	 OPEI will lead this initiative -and will set up a small voluntary programs
             coordination staff. OPEI will also chair an Agency-wide workgroup, comprising
             representatives from each program and region, to design the new processes and
             ensure successful implementation.

          •	 The IAC will provide oversight of voluntary program management - giving final
             approval to the new guidelines and processes and, ultimately, ensuring
             accountability and implementation of the recommended changes.

                                               10

        •	 Representatives from each voluntary program will participate in a Voluntary
           Program Network, a supportive forum for sharing best practices and lessons
           learned.

     And I am hopeful that we can achieve two important near-term milestones:

        •	 An Agency-wide notification process in place by April 30, 2004.

        •	 IAC-approved guidelines addressing improvements in design, brand management,
           and measurement in place by September 2004.

     As we shift to this new management approach for the voluntary programs, we will be
     mindful that our primary goal is to enhance the value of these important programs in
     achieving environmental results. We want voluntary programs that deliver
     environmental gains with measured and reported results recognized by the public, and we
     want programs that appeal to a growing number of participants, that are easy to
     understand and have well-designed operating procedures. I believe we can strengthen the
     strategic management of voluntary programs without stifling the new ideas and creative
     forces associated with start-ups of new voluntary activities. I encourage regions and
     program offices to continue developing new programs. I believe these activities will be
     strengthened by our proposed improvements to EPA-wide management of voluntary
     programs.

     The Administrator is committed to collaborative processes to drive improvements in
     environmental protection. I commend the Innovation Action Council for its leadership in
     identifying actions we can take right away to enhance the effectiveness of EPA voluntary
     programs by making them more customer-focused and results oriented. The set of
     activities we are launching today is an important step that can lead to more strategic use
     of voluntary programs to solve environmental problems.


Charter for Coordinating and Managing EPA’s Voluntary Programs
(issued June 28, 2004)

     PURPOSE

     Voluntary programs can deliver significant environmental results when well designed and
     managed. Based on analysis and recommendations from the Innovation Action Council,
     the Office of the Administrator requested that the effectiveness of EPA voluntary
     programs (individually and collectively across the Agency) be enhanced by making them
     more customer focused and results-oriented. Improvements are needed in three areas:
     better coordination across all programs, enhanced accountability for sound program
     design and management, and more strategic management of programs.




                                             11

DEFINITION AND SCOPE

Voluntary programs at EPA encompass a breadth of diverse activities, from whole
organizational units that use voluntary approaches to accomplish their mission (e.g.,
indoor air, pollution prevention) to small partnership projects created by individual staff.
There is a wide variety in the design of voluntary programs, targeted participants, and
types of environmental issues addressed. This Charter uses a broad definition of
voluntary programs, "programs designed to motivate people and organizations to take
actions not required by regulation that benefit the environment." These voluntary
programs may achieve their goals in various ways, the use of market forces, or by
providing recognition or other incentives. They may encourage actions that go beyond
compliance with environmental requirements, or provide an alternative way to achieve a
regulatory objective.

ROLES AND RESPONSIBILITIES

The Office of Policy, Economics, and Innovation (OPEI) is designated as the lead office.
The OPEI voluntary program coordinator will provide EPA-wide services including a
web site, marketing, reports about results and other support services for voluntary
programs; staff the voluntary program network and Agency-wide workgroup; manage a
simple notification process for new and expanding programs; and support evaluations and
policy studies that can advance the use of voluntary programs to accomplish EPA's
mission. Each EPA Headquarters and Regional Office will design and operate voluntary
programs consistent with EPA-wide guidelines, notify other EPA organizations about
new and expanding programs, and participate in the voluntary program network and
workgroup.

Intra-agency coordination will be accomplished through:

   •	 voluntary programs network for managers and staff of voluntary programs in
      Headquarters and Regions. The network will provide a communication link and a
      supportive forum for sharing best practices and lessons learned. Representatives
      from each voluntary program are expected to participate in the network, via
      electronic communications (e.g., a list-serve) and teleconference calls, as needed.

   •	 a voluntary programs workgroup, comprising senior staff representatives from
      each AA-ship and appropriate Regional Offices (e.g., the DRAs may agree to use
      a lead Region to represent Regional views). The workgroup is responsible for
      drafting EPA voluntary program guidelines and related policies, and helping
      design and operate effective cross-agency systems that support voluntary
      programs (e.g., EPA-wide notification process on new or expanding programs).
      Each workgroup member will represent the views of their Assistant or Regional
      Administrator in workgroup discussions, and will also serve as a resource for
      other voluntary programs in sharing information and lessons learned.




                                         12

   •	 the Innovation Action Council (IAC) is responsible for oversight of voluntary
      program management. The IAC will give final approval to the new guidelines
      and processes and ultimately ensure accountability and implementation of the
      recommended changes. Using a Subcommittee comprised of Headquarters and
      Regional representatives, the IAC will ensure the quality of voluntary program
      design and oversee the management of the EPA brand associated with voluntary
      programs and measurement of results. Issues will be elevated, as needed, to the
      Deputy Administrator for resolution.

ANNUAL REPORT TO DEPUTY ADMINISTRATOR

OPEI, in consultation with the IAC, will prepare a concise report to the Deputy
Administrator at the end of each calendar year that highlights accomplishments, provide a
status report on management processes, and identify any management issues that need
attention. Each year, the Deputy Administrator will determine if any new policy
directions or additional management improvements are needed. The first year's focus
will include; an improved means to support voluntary program managers and staff; new
Agency guidelines on program design, brand management and measurement; and,
operation of an Agency-wide notification process for new or expanding programs. After
five years, a major internal evaluation will be conducted on EPA's management of
voluntary programs.

DURATION

Coordination of EPA's voluntary programs will be needed on a continuing basis as
determined by the Administrator or Deputy Administrator. This Charter will be reviewed
five years after approval.




                                       13

                                                                                       Appendix B

                                Agency Responses



MEMORANDUM

Subject:       OPEI Comments on the OIG’s Evaluation Report “Voluntary Programs Could
               Benefit from Internal Policy Controls and a Systematic Management Approach”

From:          Brian F. Mannix
               Associate Administrator

To:            Jeffrey Harris, Director
               Program Evaluation, Cross-Media Issues
               Office of the Inspector General


Thank you for the opportunity to provide comments on the Office of the Inspector General’s
Evaluation Report “Voluntary Programs Could Benefit from Internal Policy Controls and a
Systematic Management Approach” (Assignment No. 2007-00285). This memo supplements the
comments made in our April 2007 response to your Discussion Draft, which we have attached
for your reference.

General Comments

We continue to agree with your conclusion that stronger management controls are needed for
voluntary/partnership programs and that they should be subject to more strategic evaluation. The
history of these programs has been characterized by a development period in which we
encouraged innovation and creative approaches to solve environmental problems that were not
being addressed by regulation. The need for more rigorous management systems has become
apparent more recently, as the use of partnership approaches has grown.

Without weakening the recommendation for further action, we believe it is important
(particularly for external readers) that the final report recognize the steps that have already been
taken in this direction. Therefore, we are providing a one page summary of the progress to date
that we suggest be used as an appendix to your report (see Appendix A).

Similarly, we think it is important to appropriately recognize the evaluations that have already
been conducted for these programs (for example, through OMB’s PART process). Appendix A
describes some of the results of these evaluations.



                                                 14

We believe it is important to avoid any implication that the recommendation for greater
management controls is intended as an indictment of partnership programs. Any major activity in
the Agency, whether regulatory, educational, grant-supported or compliance-oriented, should be
subject to oversight and evaluation. Once all Agency programs, regulatory or otherwise, are
subject to comparable systems, we can be sure we are properly managing agency resources and
fulfilling our public trust.

We note that your recommendations for strengthening the management of partnership programs
do not address who should have the responsibility for creating this next level of controls (leaving
that decision to the Deputy Administrator). We believe that the Innovation Action Council
(IAC) remains well-positioned to perform this role, as it was in 2004 when then Deputy
Administrator Stephen Johnson chartered the IAC to play the lead role in the agency-wide
management system for these programs – leading to the actions described in Appendix A. As
EPA moves to a more mature system for strategically managing all Agency programs, including
partnership programs, the IAC will fill the critical function of developing evaluation guidelines
and a priority-setting scheme for individual program assessment. The IAC is also well-equipped
to explore some of the cross-cutting policy questions related to partnership programs.

Another area pointed out in your report pertains to the evolving definition of partnership
programs. We recognize that historically the definitions have varied to some extent; however,
we believe that progress has been made in creating a meaningful definition that works for
purposes of the IAC’s coordination activities. We are working to increase awareness of this
definition across the Agency, as well as creating further categories that will make it easier to
determine the types of programs. We do wish to reiterate, however, that because the programs
are so varied, it is impossible to create a “bright line” definition that can be used for all purposes
and leaves no room for judgment in individual cases. Further, we believe it is ultimately
unhelpful to focus undue energy on artificial categories and criteria, when we should instead be
emphasizing the best management strategies and practices applicable to all types of Agency
programs.

With regard to your recommendation concerning the use of an “R&D model” for partnership
programs, we believe many elements of an R&D model align with the Guidelines for Designing
EPA Partnership Programs and would be helpful in the management of these programs. This
includes the concepts of pilot testing and evaluating program concepts before wider program
rollout. We also believe such a model recognizes a key strategic advantage of the partnership
program approach: the ability to relatively quickly modify program design elements or transfer
successful program design elements from one program to another. This development process
links back to the usefulness of our notification process, which enables Agency-wide information
sharing, collaboration, and innovation transfers for new partnership programs.

Finally, while we agree in general with the need to create a stronger evaluation framework we
wish to again emphasize that one size does not fit all and that no single set of uniform criteria
will apply to all partnership programs. These evaluations may need to be performed in several
unique contexts, such as the developmental stage of the program or the relationship of the
partnership activity to the regulatory program that it may augment. Furthermore, evaluation



                                                  15

should be planned and designed looking at the entire suite of tools (not just partnership
programs) and the policy choices facing the Agency.


Specific Comments

Following are specific corrections that we would like to see in the final report.
    	 Page 1 states we were directed to “develop some guidance documents to improve
       program design, measurement, and using the EPA logo as a corporate-style brand,” Our
       charge was broader than use of the EPA logo -- it was to work with partnership programs
       to ensure stronger and more strategic marketing of EPA partnership programs.
     Page 3 states we have developed two guidance documents. We have developed all three
       planned documents - Design, Performance Measurement and Program Marketing.
     Page 5, Table 2.2 - Changes in Scope of EPA’s Voluntary Program Effort.
           o	 2004 Voluntary Programs description—we suggest stating that this population
               includes regional programs.
           o	 2005 Voluntary Programs description— includes regionally-based efforts.
           o	 When regionally-based programs are removed from the 2004 and 2005 lists, the
               number of “voluntary programs” does not change significantly from year to year.
    	 Page 6 states: “As shown by the example above, if the overall intent of a program is to
       provide grant funds, then there should be criteria that keeps this type of program from
       being confused with programs that recruit members or ones that provide information and
       recognition.” EPA has had language in our definition since 2003 that excludes grants
       programs and information-based programs from the partnership program list. The
       difficulty appears to be that when programs are asked, they do not rely on the existing
       definition.

Thank you again for the opportunity to comment on this report. We would be happy to meet
with you at any time to discuss the comments and hope that we can continue to work together to
make these programs as effective and efficient as possible.

Attachment – OPEI’s May 2007 comments on the Voluntary Programs Internal Controls
Discussion Draft
Appendix A – EPA Partnership Programs – Accomplishments and Progress to Date




                                                16

                                       APPENDIX A

          EPA Partnership Programs -- Accomplishments and Progress to Date

The 2004 Agency Charter for Coordinating and Managing EPA’s Voluntary Programs,
signed by then Deputy Administrator, Stephen Johnson, specified that the programs be
overseen and directed by the Agency’s Innovations Action Council (IAC) and charged EPA’s
Office of Policy Economics and Innovation (OPEI) with improving coordination across all
programs, enhancing accountability for sound program design and management, and guiding
more strategic management of programs. In fulfilling that mandate, OPEI:
    	 Established an Agency Notification process for any new or expanding
       voluntary/partnership program, a cross-Agency Innovations Action Council
       Workgroup of partnership program managers, and a Network of nearly 400 EPA
       partnership program managers and staff.
    	 Developed Guidelines for Designing EPA Partnership Programs, Guidelines for
       Measuring the Performance of Partnership Programs, and Guidelines for Marketing
       Partnership Programs.
    	 Developed a Partnership Program listserv and Partners for the Environment internet
       and intranet sites to enhance communication.
     Trained nearly 100 partnership program staff on partnership program best practices
     Is now developing a categorization scheme for partnership programs.
     Is developing guidelines for evaluating these programs.
     Consults on a daily basis with EPA partnership programs to advise them on policy
       requirements and state-of-the art tools and procedures for operating their programs.

EPA’s Program Offices continue to take measures to assure that they strategically manage
the creation, management, and “sunsetting” of partnership programs. For example Program
Office managers have:
    	 Created programs to complement or precede rules such as the National Clean Diesel
        Campaign, Design for the Environment’s Safer Detergent Stewardship Initiative, and
        High Production Volume Chemicals Challenge Program.
     Phased out or terminated programs as needs evolved, such as, ClimateWise, Water
        Alliance for Voluntary Efficiency, and Green Lights.
     “Privatized” or turned over to the private sector programs like Hospitals for a Healthy
        Environment.

A wide variety of evaluations has been performed on partnership programs and they
demonstrate that the programs are effective and achieving environmental results.
   	 Most EPA Partnership Programs have been reviewed through the OMB PART
      process. They have generally scored in the top third among all PART-reviewed EPA
      programs -- regulatory, grant, or otherwise.
   	 Please also note that in-depth evaluations have been conducted on these and other
      EPA Partnership Programs by the Inspector General, the General Accounting Office,
      Harvard's Kennedy School of Government, the Agency's Evaluation Support Division
      (through the Program Evaluation Competition), and others.



                                           17

MEMORANDUM

SUBJECT: 	    Office of Air and Radiation Comments on the OIG’s July 16, 2007 Draft Report
                     entitled “Voluntary Programs Could Benefit from Internal Controls and a
              Systematic Management Approach”
              Assignment Number: 2007-000285

FROM:         	Elizabeth Craig
              Deputy Assistant Administrator

TO: 	         Jeffrey Harris
              Director of Program Evaluation, Special Studies
              Office of Inspector General

   The Office of Air and Radiation (OAR) would like to provide the following comments
regarding the Office of the Inspector General (OIG) Draft Report entitled “Voluntary Programs
Could Benefit from Internal Controls and a Systematic Management Approach”.

   •	 The report should acknowledge, both in the summary and body, that certain non-
      regulatory EPA programs track results consistently and are demonstrating strong
      performance. While there may be no systematic means to aggregate and evaluate results
      across all non-regulatory programs at the Agency level, that may be attributable to the
      wide variation in purpose, design, and method among programs collected artificially
      under a single, broad label, “voluntary.”

   •	 Chapter One, Background Discussion: As currently written, this section may be read to
      imply that the Agency initiated non-regulatory programs randomly or indiscriminately.
      In many cases, such programs are authorized under EPA’s environmental statutes and
      may be properly viewed as products of the Agency’s initiative in pursuing statutory goals
      through authorized means other than regulation.

   •	 Chapter One, Noteworthy Accomplishments: This section creates the impression that
      non-regulatory programs address themselves only to businesses, non-profits, and
      governments. Many such programs direct themselves to the general population, making a
      measurable difference in reducing environmental risk through fostering change in citizen
      behavior.

   •	 Chapter Two, Voluntary Programs Need More Specific Definitions: We agree with a
      tentative conclusion of this section:

              “Agency-wide definition may not be feasible, EPA should develop additional
              criteria for groups and categories of voluntary programs that better describe the
              intent and function of these broader program types. Also, EPA must improve the
              way it communicates those definitions and criteria to each program office that
              operates voluntary programs.”

                                               18

    •	 Chapter 2, EPA Could Apply a Research and Development Approach: OAR disagrees
       with the finding the EPA lacks a systematic process for developing and testing new
       programs and for evaluating existing voluntary programs. Many individual programs are
       tracking results, and thoughtfully considering adjustments to their programs based upon
       internal as well as external evaluations. Also, the PART (Performance Assessment
       Rating Tool) is designed to rate the effectiveness of federal programs government-wide,
       and it has already been applied to a number of non-regulatory programs.

   Thank you for the opportunity to comment on this draft report on Voluntary programs.
Should you have questions on these comments please contact Thomas E. Kelly, Director, Indoor
Environments Division, at (202) 343-9444.




cc: 	   Elizabeth A. Cotsworth, Director
        Office of Radiation and Indoor Air

        Thomas E. Kelly, Director 

        Indoor Environments Division 





                                              19

OIG Draft Report on the Internal Management Controls of Voluntary Programs
                            OPPT Comments 7/25/07

        The Office of Inspector General’s draft evaluation report called “Voluntary Programs Could
Benefit from Internal Policy Controls and a Systematic Management Approach” (Assignment No. 2007-
00285) contains the following recommendations for the Deputy Administrator:

       1) Develop and implement Agency-wide management policies for voluntary programs.

       2) Implement a voluntary program management approach similar to a research and development
       model.

       3) Develop specific recommendations or criteria that outline the general intent and function for
       the groups or categories of EPA voluntary programs that are currently implemented.


         OPPT has two overarching points about the report that we would like for OPEI to consider when
responding to OIG. First, the recommendations put forth by the Partnership Programs Review
Workgroup address the first recommendation for developing and implementing Agency-wide
management policies for voluntary programs. Secondly, the research and development model referenced
in OIG’s second recommendation does not recognize the fact that the IAC recommends using a different
approach, namely the logic model approach. The report states on page 7 “Without a system to develop,
test, and market new systems, or evaluation existing programs, EPA cannot determine which voluntary
programs are succeeding, which are failing, and which ones should serve as models for future program
development.” OPPT contends the logic model approach is a valid method for developing and evaluating
programs.




                                                  20

                                                                               Appendix C

            OIG’s Analysis of Agency Responses

               Office of Policy, Economics, and Innovation (OPEI)

Section/
 Page                  OPEI Comment                               OIG Response
General    We continue to agree with your conclusion       OPEI concurs with the report in
           that stronger management controls are needed    general. However, we remain
           for voluntary/partnership programs and that     uncertain exactly how the
           they should be subject to more strategic        Agency plans to address and
           evaluation. The history of these programs has   resolve each of our individual
           been characterized by a development period      recommendations. We therefore
           in which we encouraged innovation and           consider our report
           creative approaches to solve environmental      recommendations to be open and
           problems that were not being addressed by       unresolved based on our analysis
           regulation. The need for more rigorous          of the Agency’s comments.
           management systems has become apparent
           more recently, as the use of partnership        In its response to our final
           approaches has grown.                           report, EPA should outline how
                                                           each recommendation will be
           Without weakening the recommendation for        addressed. EPA should also
           further action, we believe it is important      develop a corrective action plan
           (particularly for external readers) that the    for agreed upon actions that
           final report recognize the steps that have      include milestone dates for
           already been taken in this direction.           accomplishing each of those
           Therefore, we are providing a one page          actions.
           summary of the progress to date that we
           suggest be used as an appendix to your report
           (see Appendix A).
                                                           The goal of this evaluation was
           Similarly, we think it is important to          to determine if EPA has
           appropriately recognize the evaluations that    consistent Agency-wide policies
           have already been conducted for these           that govern the implementation,
           programs (for example, through OMB’s            management and oversight of
           PART process). Appendix A describes some        voluntary programs. While we
           of the results of these evaluations.            understand the importance of
                                                           external evaluations, our
           We believe it is important to avoid any         recommendations focus on the
           implication that the recommendation for         development and
           greater management controls is intended as an   implementation of consistent
           indictment of partnership programs. Any         internal policy controls.
           major activity in the Agency, whether
           regulatory, educational, grant-supported or

                                           21

Section/
 Page                   OPEI Comment                                 OIG Response
           compliance-oriented, should be subject to
           oversight and evaluation. Once all Agency
           programs, regulatory or otherwise, are subject
           to comparable systems, we can be sure we are
           properly managing agency resources and
           fulfilling our public trust.

           We note that your recommendations for             We do not believe that the IAC
           strengthening the management of partnership       is the appropriate designee for
           programs do not address who should have the       the responsibility of creating the
           responsibility for creating this next level of    additional controls. The actions
           controls (leaving that decision to the Deputy     described in our
           Administrator). We believe that the               recommendations are better
           Innovation Action Council (IAC) remains           implemented by a program
           well-positioned to perform this role, as it was   office that can have daily rather
           in 2004 when then Deputy Administrator            than just periodic involvement
           Stephen Johnson chartered the IAC to play         with the issues.
           the lead role in the agency-wide management
           system for these programs – leading to the        OPEI has been charged with
           actions described in Appendix A. As EPA           other aspects of voluntary
           moves to a more mature system for                 program management.
           strategically managing all Agency programs,       Therefore, it is appropriate for
           including partnership programs, the IAC will      the Deputy Administrator to
           fill the critical function of developing          provide OPEI with the authority
           evaluation guidelines and a priority-setting      to develop, implement and
           scheme for individual program assessment.         oversee these mandatory
           The IAC is also well-equipped to explore          policies.
           some of the cross-cutting policy questions
           related to partnership programs.

           Another area pointed out in your report           We understand that EPA’s
           pertains to the evolving definition of            Voluntary Program population is
           partnership programs. We recognize that           diverse and varied. However,
           historically the definitions have varied to       we believe that inconsistent
           some extent; however, we believe that             definitions hinder overall
           progress has been made in creating a              management and effectiveness
           meaningful definition that works for purposes     of this program set.
           of the IAC’s coordination activities. We are
           working to increase awareness of this             We do not recommend that EPA
           definition across the Agency, as well as          necessarily create a “bright line.”
           creating further categories that will make it     Rather, we recommend that EPA
           easier to determine the types of programs.        include some additional criteria
           We do wish to reiterate, however, that            in its existing definition to help
           because the programs are so varied, it is         program offices more accurately

                                             22

Section/
 Page                   OPEI Comment                                  OIG Response
           impossible to create a “bright line” definition    and consistently categorize these
           that can be used for all purposes and leaves no    programs. We believe creating
           room for judgment in individual cases.             definitions for appropriate
           Further, we believe it is ultimately unhelpful     categories of programs will
           to focus undue energy on artificial categories     enhance EPA’s ability to
           and criteria, when we should instead be            “…emphasiz[e] the best
           emphasizing the best management strategies         management strategies and
           and practices applicable to all types of           practices….” Also, EPA needs to
           Agency programs.                                   effectively communicate these
                                                              definitions to program offices.

           With regard to your recommendation                 We understand that the existing
           concerning the use of an “R&D model” for           design guidelines help with
           partnership programs, we believe many              piloting and initial testing of new
           elements of an R&D model align with the            voluntary programs. However,
           Guidelines for Designing EPA Partnership           these guidelines do not
           Programs and would be helpful in the               sufficiently address the ongoing
           management of these programs. This includes        implementation and periodic
           the concepts of pilot testing and evaluating       evaluation necessary to ensure
           program concepts before wider program              that existing programs continue
           rollout. We also believe such a model              operating effectively.
           recognizes a key strategic advantage of the
           partnership program approach: the ability to       Therefore, we recommend that
           relatively quickly modify program design           OPEI develop a policy that
           elements or transfer successful program            incorporates this R&D model
           design elements from one program to another.       through both the development
           This development process links back to the         and implementation phases of a
           usefulness of our notification process, which      voluntary program’s lifecycle.
           enables Agency-wide information sharing,
           collaboration, and innovation transfers for        This policy can be designed with
           new partnership programs.                          enough flexibility to allow for
                                                              periodic program evaluation
           Finally, while we agree in general with the        while still recognizing the
           need to create a stronger evaluation               diversity of this broad program
           framework we wish to again emphasize that          set.
           one size does not fit all and that no single set
           of uniform criteria will apply to all
           partnership programs. These evaluations may
           need to be performed in several unique
           contexts, such as the developmental stage of
           the program or the relationship of the
           partnership activity to the regulatory program
           that it may augment. Furthermore, evaluation
           should be planned and designed looking at the

                                             23

 Section/
  Page                    OPEI Comment                                 OIG Response
             entire suite of tools (not just partnership
             programs) and the policy choices facing the
             Agency.
Chapter 1,   Page 1 states we were directed to “develop        We changed the report in
Page 1       some guidance documents to improve                response to this comment.
             program design, measurement, and using the
             EPA logo as a corporate-style brand,” Our
             charge was broader than use of the EPA logo
             -- it was to work with partnership programs to
             ensure stronger and more strategic marketing
             of EPA partnership programs.

Chapter 2,   Page 3 states we have developed two               We changed the report in
Page 3       guidance documents. We have developed all         response to this comment.
             three planned documents - Design,
             Performance Measurement and Program
             Marketing.
Chapter 2,   Page 5, Table 2.2 - Changes in Scope of           We added two additional
Page 5,      EPA’s Voluntary Program Effort.                   footnotes to this table to indicate
Table 2.2     • 2004 Voluntary Programs description—           which program counts do and do
                  we suggest stating that this population      not include regional programs.
                  includes regional programs.
              • 2005 Voluntary Programs description—
                  includes regionally-based efforts.
              • When regionally-based programs are
                  removed from the 2004 and 2005 lists,
                  the number of “voluntary programs” does
                  not change significantly from year to
                  year.
Chapter 2,   Page 6 states: “As shown by the example           We believe that this issue is a
Page 6       above, if the overall intent of a program is to   clear example of why more
             provide grant funds, then there should be         specific definitions that outline
             criteria that keeps this type of program from     the groups or categories of these
             being confused with programs that recruit         programs need to be developed
             members or ones that provide information and      and effectively and consistently
             recognition.” EPA has had language in our         communicated to program
             definition since 2003 that excludes grants        offices.
             programs and information-based programs
             from the partnership program list. The
             difficulty appears to be that when programs
             are asked, they do not rely on the existing
             definition.



                                              24

                           Office of Air and Radiation (OAR)

 Section/
  Page                    OAR Comment                                  OIG Response
General      The report should acknowledge, both in the        We believe that we acknowledged
             summary and body, that certain non-               EPA’s voluntary program results
             regulatory EPA programs track results             in the “Noteworthy
             consistently and are demonstrating strong         Achievements” section of
             performance. While there may be no                Chapter 1.
             systematic means to aggregate and evaluate
             results across all non-regulatory programs at
             the Agency level, that may be attributable to
             the wide variation in purpose, design, and
             method among programs collected artificially
             under a single, broad label, “voluntary.”
Chapter 1,   Chapter One, Background Discussion: As            We neither said nor implied that
Page 1       currently written, this section may be read to    programs are developed randomly
             imply that the Agency initiated non-              or indiscriminately. We did not
             regulatory programs randomly or                   change the report in response to
             indiscriminately. In many cases, such             this comment.
             programs are authorized under EPA’s
             environmental statutes and may be properly
             viewed as products of the Agency’s initiative
             in pursuing statutory goals through authorized
             means other than regulation.
Chapter 1,   Chapter One, Noteworthy Accomplishments:          In the “Noteworthy
Page 1       This section creates the impression that non-     Achievements” section of Chapter
             regulatory programs address themselves only       1, we have added, “EPA
             to businesses, non-profits, and governments.      increasingly relies on voluntary
             Many such programs direct themselves to the       programs as a tool for protecting
             general population, making a measurable           the environment. EPA’s 54
             difference in reducing environmental risk         headquarters voluntary programs
             through fostering change in citizen behavior.     are diverse, providing a variety of
                                                               benefits to several different
                                                               customer groups, including some
                                                               non-governmental organizations
                                                               and the public.”
Chapter 2,   Chapter Two, Voluntary Programs Need              No OIG response necessary.
Page 4       More Specific Definitions: We agree with a
             tentative conclusion of this section:
             “Agency-wide definition may not be feasible,
             EPA should develop additional criteria for
             groups and categories of voluntary programs
             that better describe the intent and function of
             these broader program types. Also, EPA must
             improve the way it communicates those

                                              25

 Section/
  Page                    OAR Comment                                   OIG Response
             definitions and criteria to each program office
             that operates voluntary programs.”
Chapter 2,   Chapter 2, EPA Could Apply a Research and         One of our goals was to determine
Page 6       Development Approach: OAR disagrees with          if EPA has consistent Agency-
             the finding the EPA lacks a systematic            wide policies that govern
             process for developing and testing new            voluntary programs. We found
             programs and for evaluating existing              that EPA has no Agency-wide
             voluntary programs. Many individual               policies that require voluntary
             programs are tracking results, and                programs to collect comparable
             thoughtfully considering adjustments to their     data, or conduct regular program
             programs based upon internal as well as           evaluations of individual programs
             external evaluations. Also, the PART              or across all defined voluntary
             (Performance Assessment Rating Tool) is           programs.
             designed to rate the effectiveness of federal
             programs government-wide, and it has              The statement that program results
             already been applied to a number of non-          are tracked individually reaffirms
             regulatory programs.                              our conclusion that "...there [is] no
                                                               systematic means to aggregate and
                                                               evaluate results across all non-
                                                               regulatory programs at the Agency
                                                               level ....”

                                                               While we understand the
                                                               importance of external
                                                               evaluations, our recommendations
                                                               focus on the development and
                                                               implementation of consistent
                                                               internal policy controls. We accept
                                                               this comment as additional
                                                               evidence that EPA lacks an
                                                               Agency-wide policy that requires
                                                               internal evaluations.




                                              26

             Office of Prevention, Pesticides, and Toxic Substances (OPPTS)

 Section/
  Page                   OPPTS Comment                               OIG Response
Chapter 2,     First, the recommendations put forth by      We understand that a new draft
Page 8         the Partnership Programs Review              document is awaiting approval. We
               Workgroup address the first                  look forward to the adoption and
               recommendation for developing and            implementation of Agency-wide
               implementing Agency-wide management          management policies that address
               policies for voluntary programs.             our report recommendations.
Chapter 2,     Secondly, the research and development       We agree that a logic model is a
Page 7 and     model referenced in OIG’s second             valid method for developing and
8              recommendation does not recognize the        evaluating programs. However, we
               fact that the IAC recommends using a         do not believe that a logic model is
               different approach, namely the logic         sufficient to address our findings.
               model approach. The report states on         We believe the R&D model will be
               page 7 “Without a system to develop, test,   complementary to the use of logic
               and market new systems, or evaluation        models.
               existing programs, EPA cannot determine
               which voluntary programs are succeeding,     Our recommendation is designed to
               which are failing, and which ones should     incorporate the R&D model as part
               serve as models for future program           of Agency-wide management
               development.” OPPT contends the logic        policies to ensure the regular,
               model approach is a valid method for         periodic, and consistent
               developing and evaluating programs.          development, piloting, testing, and
                                                            evaluation of voluntary programs
                                                            throughout their life cycles.




                                                27

                                                                                  Appendix D

                                     Distribution

Office of the Administrator
Deputy Administrator, Office of the Administrator
Associate Administrator, Office of Policy, Economics, and Innovation
Principal Deputy Assistant Administrator, Office of Air and Radiation
Assistant Administrator, Office of Prevention, Pesticides, and Toxic Substances
Office of General Counsel
Agency Followup Official (the CFO)
Agency Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of the Administrator
Acting Inspector General




                                               28

